BECKER GALLAGHER
Briefs

and

DONNA
)ULIE

Records

A.

CERTIFICATE OF SERVICE
I, Julie A. Kershner, hereby certify that 1 unbound
and 40 copies of the foregoing Conditional
Cross-Petition for Writ of Certiorari in Eunice J.
Winzer v. Kaufman County, Texas; Matthew Hinds,
were sent via Three Day Service to the U.S. Supreme
Court, and 3 copies were sent via Three Day Service
and e-mail to the following parties listed below, this
18th day of February, 2020:
S. Cass Weiland
Robert A. Hawkins
Squire Patton Boggs (US) LLP
2000 McKinney Avenue, Suite 1700
Dallas, Texas 75201
cass. weiland@squirep b .cairn

Counsel for Cross-Respondents
Matthew J. Kita
Counsel of Record
P.O. Box 5119
Dallas, Texas 75208
(214) 699-1863
matt@mattkita.com

Counsel for Cross-Petitioner

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

J. WOLF, J.D.
KERSHNER, J.D.

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on February 18, 2020.

Julie A. Kershner
Becker Gallag er Le 1 Publishing, Inc.
8790 Governor's · Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

Notary Publi~
[seal]

JOHN D. GALLAGHER
Notary Public, State of Ohio
My Commission Expires
February 14, 2023

